                                                                       Office               Hotline

  Office of Inspector General                                          202.692.2900
                                                                       peacecorps.gov/OIG
                                                                       OIG Reports
                                                                                            202.692.2915 ‫ ׀‬800.233.5874
                                                                                            Online Reporting Tool
                                                                                            OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          June 10, 2014

Subject:       Final Report on the Audit of Peace Corps Applicant Screening Process
               (IG-14-04-A)

Transmitted for your information is our final report on the audit of Peace Corps Applicant
Screening Process.

Management concurred with all eight recommendations. All eight recommendations remain
open. In its response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that when we close
recommendations, we are not certifying that the agency has taken these actions, or that we have
reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities. Our comments, which are in the report as Appendix E, address these matters.

You may address questions regarding follow-up or documentation to Acting Assistant Inspector
General for Audit Hal Nanavati at 202.692.2929 or to Lead Auditor Becca Underhill at
202.692.2351.

Please accept our thanks for your cooperation and assistance in our review.


cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Carlos Torres, Associate Director, Office of Global Operations
        Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Helen Lowman, Associate Director, Office of Volunteer Recruitment and Selection
        Joseph Hepp, Chief Financial Officer
        Daryl Sink, Chief, Overseas Operations, Office of Safety and Security
        Barry Simon, Director, Office of Medical Services
        David Burgess, Chief of Operations, Office of Volunteer Recruitment and Selection
        Dick Day, Regional Director, Africa Operations
        Nina Favor, Acting Regional Director, Inter-America and the Pacific Operations
        Kathy Rulon, Acting Regional Director, Europe, Mediterranean and Asia Operations
        Nicholas Bassey, Director of Placement, Office of Volunteer Recruitment and Selection
        Patricia Barkle, Deputy Chief Compliance Officer
 Peace Corps
 Office of Inspector General




         Final Audit Report:
Peace Corps Applicant Screening Process
             IG-14-04-A

                                      June 2014
                               EXECUTIVE SUMMARY

BACKGROUND
Volunteers are the core of the Peace Corps and essential to meeting the agency’s mission. Since
1961, over 215,000 Peace Corps Volunteers have served in 139 host countries. In recent years,
the Peace Corps has received more than 10,000 applicants each year. On average, approximately
30 percent of applicants have been invited to become a Volunteer.

OBJECTIVES
Our objectives were to determine whether the Peace Corps Office of Volunteer Recruitment and
Selection (VRS) had sufficient and reliable information to make appropriate suitability and
eligibility determinations for Volunteer applicants; whether the Peace Corps’ applicant screening
process was consistent with the screening practices of other major volunteer organizations; and
the prevalence, characteristics, and outcomes of serious Volunteer misconduct.

RESULTS IN BRIEF
VRS uses a multi-level, in-depth screening process that evaluates not only applicants’ eligibility,
but also suitability to serve in the Peace Corps. While the screening process for Volunteers is
different that the process for employees, it was generally consistent with similar organizations.
We identified three practices common among Volunteer organizations that were lacking at Peace
Corps: permanent information on previous Volunteers who were involved in misconduct, child
safety policies for Volunteers interacting with minors, and verification of work history.

The Peace Corps did not have a formal procedure to review its screening process in order to
analyze negative Volunteer separations. This procedure would allow it to determine if the
applications had misconduct or other suitability issues that went undetected in the screening
process, which could improve the applicant screening process. When a Volunteer committed
serious misconduct, VRS would review the Volunteer’s application for any suitability and
eligibility issues that were missed, but only on an ad hoc basis. Evaluating the effectiveness of
current practices is critical to continuously improve and identify weaknesses.

Peace Corps staff responsible for making screening decisions did not have access to all
information on current applicants in a timely manner. Although applicant files contained all
information about the initial screening and related decisions, if the applicant was a former Peace
Corps Volunteer, the records lacked information about the applicant’s former service. One
essential document for determining if an applicant who reapplies to the Peace Corps is suitable
and eligible is the administrative separation memo prepared for Volunteers that engage in
misconduct. There was inconsistent and missing information about prior Volunteer service
because the Peace Corps lacked a centralized or formal process for storing unfavorable
Volunteer separations, including administrative separations or situations where the Volunteer
resigned in lieu of separation, that describe misconduct that may render the person ineligible for
future service as a Volunteer.




Final Audit Report: Peace Corps Applicant Screening Process                                          i
RECOMMENDATIONS
Our report contains eight recommendations, which, if implemented, should strengthen the
agency’s applicant suitability and eligibility screening process.




Final Audit Report: Peace Corps Applicant Screening Process                               ii
                                                TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................... i

BACKGROUND ............................................................................................................................1

AUDIT RESULTS .........................................................................................................................4
          REQUIREMENTS FOR SCREENING PROCESS.......................................................................................................4

          CONTINUOUS IMPROVEMENT PROCESS ............................................................................................................8

          COMPLETE AND CENTRALIZED INFORMATION ON FORMER VOLUNTEERS .......................................................9


LIST OF RECOMMENDATIONS ............................................................................................13

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY .........................................14

APPENDIX B: INTERVIEWS CONDUCTED ........................................................................16

APPENDIX C: LIST OF ACRONYMS ....................................................................................22

APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT ..................23

APPENDIX E: OIG COMMENTS ............................................................................................28

APPENDIX F: AUDIT COMPLETION AND OIG CONTACT ............................................30
                                            BACKGROUND
Our objectives were to determine whether VRS had sufficient and reliable information to make
appropriate suitability and eligibility determinations for Volunteer applicants; whether the Peace
Corps’ applicant screening process was consistent with the screening practices of other major
Volunteer organizations; and the prevalence, characteristics, and outcomes of serious Volunteer
misconduct. See Appendix A for the audit objectives, scope, and methodology.

Peace Corps was established in 1961 for the purpose of promoting world peace and friendship.
The Peace Corps’ mission is to help the people of interested countries in meeting their needs for
trained men and women; to help promote a better understanding of Americans on the part of the
peoples served; and to help promote a better understanding of other peoples on the part of
Americans.

The Peace Corps achieves these goals through Volunteers, 1 who serve abroad and are essential to
meeting the agency’s mission. Since 1961, over 215,000 Peace Corps Volunteers have served in
139 host countries. In order to ensure Volunteers are successful, VRS uses a multi-level
screening process that evaluates not only applicants’ eligibility, but also suitability to serve in the
Peace Corps.

Screening Process. An individual interested in becoming a Volunteer submits an application
online through the Database of Volunteer Experience (DOVE) system. This system collects
demographic information, as well as information about a candidate’s education, work, volunteer,
and cross-cultural experiences, financial obligations, legal history, references, and motivation for
service. When the application is submitted, DOVE performs checks to ensure that the candidate
is minimally qualified. Specifically, the system verifies the applicant is a U.S. citizen and is at
least 18 years of age. After this automatic screening, the application is assigned to a VRS
recruiter to review the application for completeness and initial eligibility. The recruiter seeks to
ensure that the applicant has the basic qualifications and skills to perform in the Peace Corps
assignment areas. 2 During this initial screening, or at any point in the screening process, the
recruiter can reject an applicant if the applicant:

        •    is not a U.S. citizen
        •    is under 18 years of age
        •    is not available within the next twelve months
        •    does not have skills that meet the qualifications for any assignment area
        •    will not meet legal eligibility requirements within the next year
        •    is under court-ordered probation or parole
        •    is deemed unsuitable for Peace Corps service for other reasons
1
  Volunteers are not deemed to be U.S. federal employees. However, Volunteers take the same oath of office as
those appointed to the civil service and uniformed service (22 U.S.C. § 2504).
2
  Assignment areas are different types of work within the Peace Corps’ six main focus areas: education, youth and
community development, health, business and information and communications technology, agriculture, and
environment.



Final Audit Report: Peace Corps Applicant Screening Process                                                         1
Applicants who pass this initial screening then complete and submit a legal kit, consisting of two
fingerprint cards, and questionnaires. 3 Some applicants are also sent skill or legal addenda if
additional information is needed to assess eligibility. These forms are used by the Placement
Office to perform criminal history and other eligibility checks.

Peace Corps recruiters and placement officers then seek to determine: Motivation, Productive
Competence, Emotional Maturity/Adaptability, and Social Sensitivity/Cultural Awareness. To
make these determinations, the assigned recruiter conducts an interview with the applicant, either
on the phone or in person. If the applicant meets basic skill and suitability requirements, the
recruiter will then formally nominate the applicant for Peace Corps service.

After all checks and approvals, the Placement Office conducts a two-level review process for the
nominated candidates. First, a placement associate will review each applicant’s file to ensure that
applicant qualifications match assignment area skill requirements. Placement associates also
check the file for clarity, accuracy, completeness, and indicators of the applicant suitability. If
any information is missing or unclear, the placement associate will contact the recruiter or
applicant. Then, the placement officer conducts a final review and looks not only at the
applicant’s technical skills, but also the personal qualities necessary to work successfully in a
specific Peace Corps assignment, as required by the Peace Corps “The Guide to Recruitment.”
Placement officers make the final decision on whether to invite or not to invite a candidate to a
training class. Though rejections do occur at this final stage, it is more common and preferred,
for rejections to occur at the recruitment level.

Statistics. In recent years, the Peace Corps has received more than 10,000 applicants each year.
On average, approximately 30 percent of applicants have been invited to become Volunteers.
Figure 1 provides details on the screening process over fiscal years (FYs) 2009-2012.

                             Figure 1. Application Data for FYs 2009-2012




Volunteer Misconduct. Our review of Volunteer misconduct did not reveal any prior history in
the VRS files that should have disqualified the applicant during the screening process. During

3
 VRS requires questionnaires for specific areas of concern that the applicant self-identifies. These questionnaires
ask clarification and additional information about: drug and alcohol use, relationship status, and special dietary
needs.



Final Audit Report: Peace Corps Applicant Screening Process                                                           2
FYs 2011 and 2012, Peace Corps official records indicate 108 cases of Volunteer misconduct
that led to administrative separation or resignation in lieu of termination. 4 The reasons for
termination/resignation in lieu of separation 5 ranged from failure to comply with the requirement
to notify Peace Corps staff when the Volunteer left his or her assigned site to sexual contact with
a minor (an individual under 18 years old). Of the approximately 8,500 Volunteers in the field
during this time period, one percent were separated on the basis of misconduct. See Table 1 for a
breakdown of the most frequent instances of misconduct during FYs 2011 and 2012. This
percentage does not include instances where Volunteers: (i) resign because of misconduct but
prior to a formal proposal for administrative separation 6 and (ii) receive interrupted service. 7
Peace Corps Manual section (MS) 284, “Early Termination of Service,” states that interrupted
service should not be used in lieu of administrative separation.

                             Table 1. Most Frequent Types of Misconduct
                             Incidence of Misconduct, 8 by type (FY 11-12)
                  Unauthorized Absence                                                       44
                  Inappropriate Conduct (non-sexual)                                         33
                  Failure to Adhere to Post Specific Policies                                15
                  Unsatisfactory Work Performance                                            13
                  Aggressive/Disorderly Conduct                                              10
                  Inappropriate Sexual Behavior                                               6
                  Inadequate care or attention to personal safety                             6
                  Illegal Drug Use                                                            4
                  Physical or Sexual Assault                                                  4
                  Financial Misconduct                                                        3
                  Sexual contact with minor (under 18)                                        2
                  Inappropriate/Unauthorized Published Content                                2
                  Nondisclosure during application or information revealed by NAC             2
                  Forgery                                                                     2
                 *We created misconduct categories for the purposes of this audit.

We determined that the screening process performed was consistent with Peace Corps policy and
procedures. We reviewed the applicant files of 108 Volunteers that later had misconduct issues.
We found no clear relationship between the information in the applicant’s files and the instances
of reported misconduct that should have been identified by the existing screening process.


4
  Administrative separation is Peace Corps policy to remove Volunteers with unsatisfactory conduct or performance,
violation of any Peace Corps policy, or other grounds that diminish the effectiveness of the Volunteer or Peace
Corps program. Resignation in lieu of separation occurs if the Volunteer decides to resign instead of being
administratively separated.
5
  Since FY 2011, staff have been required to provide resignation reasons in the Volunteer End of Service
Information system.
6
  According to Peace Corps FY 2011 Early Termination Report a number of Volunteers early terminate their Peace
Corps service for reasons that constitute misconduct. However, in cases where Volunteers resign prior to a proposed
separation action, their decision to early terminate would not be reflected as resignation in lieu of termination.
7
  Interrupted service permits a Volunteer to seek reinstatement or re-enrollment to Peace Corps service or seek
transfer to another country, provided the country director endorses the Volunteers request.
8
  Forty-six percent (50/108) of the separated Volunteers engaged in multiple types of misconduct.



Final Audit Report: Peace Corps Applicant Screening Process                                                      3
                                           AUDIT RESULTS
The Peace Corps has a multi-tiered screening process to assess applicants and ensure that
selected Volunteers, with no previous Peace Corps experience, met the needs and requirements
of the Peace Corps. We found that this process was generally consistent with other major
Volunteer organizations. However we found that the Peace Corps did not have a process to
regularly revisit, revise, and improve the applicant screening process and lacked centralized and
consistent information on applicants with previous Peace Corps Volunteer service.

REQUIREMENTS FOR SCREENING PROCESS

The Peace Corps’ Volunteer screening process met requirements established by the agency and
was generally consistent with similar organizations. The Peace Corps’ background investigation
process for applicants is not consistent with the process used for Peace Corps employees.
However, the application and interview process gathered sufficient information to allow Peace
Corps officials to make determinations about an applicant’s eligibility and suitability to serve as
a Volunteer in accordance with Peace Corps policy.

Background Investigations. The Peace Corps Act 9 requires:

         All persons employed or assigned to duties under this Act shall be investigated to insure that the
         employment or assignment is consistent with the national interest in accordance with standards and
         procedures established by the President…

         Volunteers shall be deemed employees of the United States Government for the purpose of this section.

The legal position of the agency is that while Executive Order 10450 required a National Agency
Check with Inquiry (NACI) for hiring employees, the Peace Corps is not required to follow these
standards. The agency asserts that the Peace Corps Act and Executive Order 12137 provide the
Peace Corps Director the authority to establish standards and procedures for Volunteers
background investigations. The Director established such standards, which have been published
in “Eligibility and Standards for Peace Corps Volunteer Service”: 10

         Section 22 of the Peace Corps Act states that to ensure enrollment of a Volunteer is consistent with the
         national interest, no applicant is eligible for Peace Corps Volunteer service without a background
         investigation. The Peace Corps requires that all applicants accepted for training have as a minimum a
         National Agency Check. Information revealed by the investigation may be grounds for disqualification
         from Peace Corps service.

Based on the language in the Peace Corps Act indicating that Volunteers be deemed employees
of the U.S. government for the purpose of security investigations we reviewed the background
investigations of Volunteers compared to those provided to Peace Corps employees. 11 We noted
9
  22 U.S.C. § 2519.
10
   22 C.F.R. § 305.
11
   Our review is not intended to address the legal position of the agency on the nature of the background or security
investigations required of Volunteers by 22 U.S.C. §2519. This matter was outside the scope of the audit.



Final Audit Report: Peace Corps Applicant Screening Process                                                             4
that the current level of investigation for applicants is not consistent with the level received by
employees who serve more than six months.

             Table 2.Comparison of Investigations for Employees and Applicants
 Peace Corps Employees Serving in Non-Sensitive Positions        Peace Corps Volunteer
      Less than Six Months          Longer than Six Months              Applicants
National Agency Check (NAC)        NACI investigation         Peace Corps screening
investigation includes searching   includes:                  process includes:
records from:

•   Office of Personnel and            •   NAC investigation          •   NAC investigation
    Management’s                       •   Inquiries on the past      •   a self-reported record of
    Security/Suitability                   five years sent to             employment history
    Investigations Index                   current and past           •   transcripts as evidence of
•   Defense Clearance and                  employers, schools             education
    Investigations Index                   attended, references,      •   completed reference forms
•   Federal Bureau of                      and local law                  from three references, to
    Investigation’s Division name          enforcement                    include a supervisor
    and fingerprint files                  authorities

Comparison to Other Volunteer Organizations. The Peace Corps’ screening process was
generally consistent with other major volunteer organizations. During the course of this audit, we
interviewed six other major volunteer organizations with characteristics similar to Peace Corps
mission and structure. We learned that most of these groups used a multi-level screening process
that consisted of an application and interview. These organizations took similar steps to screen
volunteers for eligibility and suitability. Table 3 shows the detailed comparison of the Peace
Corps to these six volunteer organizations.




Final Audit Report: Peace Corps Applicant Screening Process                                           5
                            Table 3. Comparison of Peace Corps Practices with
                                Those of Other Volunteer Organizations 12
                                                       Peace                 Organization
                                                       Corps    1       2      3     4    5            6
               “Do Not Hire” List                       no     yes     no     yes yes yes             yes
               Child Safety Program                     no     yes    yes* yes*         no     yes    no
               Credit Check                             no      no    yes*     no       no    yes**   no
               Driving Records                          no     yes** yes* yes* yes             no     no
               Federal Criminal Records                 yes    yes    yes*     yes      no     yes    yes
               Fingerprint Checks                       yes    yes    yes*     yes      no     no     no
               In-Person Interview Required             no     yes     yes     no       no     yes    yes
               Personality Assessment                   no      no     no      no       no     yes    no
               Reference Checks                         yes    yes     yes     yes      yes    yes    yes
               Sex Offender Registry                    yes    yes    yes*     yes      no     yes    no
               State/Local Criminal Records             yes    yes    yes*     yes      no     yes    yes
               Work History Verification                no     yes    yes*     no       no     no     yes
               * Conducted at local or partner level
               ** Only certain programs

The Peace Corps could improve the Volunteer screening process by adopting some of the
additional policies and practices of other volunteer organizations. We noted that several
volunteer organizations have a do not hire list, have a child safety program, and verify work
history of applicants.

Do Not Hire List. Five of the six other volunteer organizations maintained a “do not hire” list of
names of applicants the organization had decided not to work with, either based on their
application or past volunteer experience with the organization. These do not hire lists were
permanent, maintained in a centralized location, and updated frequently. Although we did not
find such practice appropriate for the Peace Corps, we emphasize the need for the agency to
improve Volunteer records. These records should better reflect poor performance or misconduct
in order to make more informed suitability decisions when Volunteers reapply to the Peace
Corps (see “Complete and Centralized Information on Former Volunteers Needed” section of
this report for more information).

Child Safety Program. Four of the other organizations, all of which required volunteers to
interact with minors had a specific and defined child safety policy and programs. Based on these
policies we noted that child safety programs include strict policies, training and awareness,
affirmation of responsibilities, and clearly defined prohibited practices. Furthermore, one
organization disqualified any applicants with a history of misconduct related to child safety,
including child abuse and sexual misconduct. The Office of Inspector General (OIG) has

12
     The names of the volunteer organizations have been withheld for privacy reasons.



Final Audit Report: Peace Corps Applicant Screening Process                                                 6
investigated cases of child abuse and sexual misconduct that indicate the need for an agency-
wide child safety policy. Three examples of convictions involving former Volunteers who
admitted to engaging in inappropriate behavior with minors during their Volunteer service
include:

    In June 2012, a former PC/South Africa Volunteer pleaded guilty to one count of
     traveling from the United States to South Africa to engage in illicit sexual conduct with
     children and admitted that he sexually abused four minor girls while he was a Peace
     Corps Volunteer. In October 2012 he was sentenced to 15 years in prison.

    In August 2011, a former PC/Honduras Volunteer pleaded guilty in to a charge of
     conspiracy to distribute child pornography. In February 2012, he was sentenced to a 60-
     month prison term and ordered to undergo 20 years of supervised release.

    In May 2007, a former PC/Costa Rica Volunteer was sentenced to 51 months in federal
     prison and three years of supervised release for sexually assaulting a minor while
     working in another country. The former volunteer admitted in February 2006 to one
     count of having ‘illicit sexual contact’ with an underage boy while he was in the country
     as a Peace Corps Volunteer working with the country's child welfare agency.

The Peace Corps needs to develop a more comprehensive approach to address misconduct
related to child safety due to the severe impact misconduct can have on victims of child sexual
abuse. MS 204, “Volunteer Conduct,” states that the Peace Corps is committed to having
Volunteers comply with U.S. laws on sexual behavior that apply overseas. Although the Peace
Corps has strict policies regarding Volunteer conduct with minors, the agency could enhance its
program by providing additional guidance, promoting greater awareness and prevention
strategies, and enhancing training. By developing a comprehensive child safety program, the
Peace Corps could mitigate the risk of additional Volunteer misconduct with minors.

Verifying Work History. Three of the other organizations routinely verify the work history of
applicants and work history verification is required for Peace Corps employees. A work history
verification confirms the individual was employed during the specific dates and can also provide
information on the reason for leaving the job, whether the applicant can be rehired, and overall
job performance. This process is useful to:

   •   Verify the accuracy of information given by applicants through other selection processes
       (e.g., résumés, occupational questionnaires, interviews).

   •   Predict the success of applicants by comparing their experience to the competencies
       required by the job.

   •   Uncover background information on applicants that may not have been identified by
       other selection procedures.

Peace Corps could enhance its process by obtaining this information from applicants’ past
employers. This practice would be consistent with the NACI check required for employees.


Final Audit Report: Peace Corps Applicant Screening Process                                       7
               We recommend:

                   1. That the Director develop and implement a specific
                      child safety program to include ongoing training.

                   2. That the Office of Volunteer Recruitment and Services
                      require work history verification as part of the
                      screening process.


CONTINUOUS IMPROVEMENT PROCESS

The Peace Corps screening process did not contain a formal review procedure to analyze adverse
Volunteer separations and determine if the associated applications contained misconduct or other
suitability issues that went undetected. However, on an ad hoc basis VRS would review the
Volunteer’s application for any suitability and eligibility issues that were missed when a
Volunteer committed serious misconduct.

Successful programs are consistently reviewed and improved to ensure procedures are effective
in meeting the desired program goal. Programs and procedures could be improved through
experience and learning from problems that have occurred in the past. Programs essential to the
Peace Corps mission should be evaluated on a regular basis to ensure they are operating at the
highest level possible. Without a formal review process, the agency cannot be certain that its
Volunteer screening process is adequately designed to identify potential eligibility and suitability
issues.

As part of this audit, we conducted a survey of all 60 country directors (CDs), who were in place
at the time of this audit, to determine the prevalence of misconduct issues and their views on the
Volunteer screening process. Of the 51 responses received, 76 percent of CDs believed that
misconduct issues could have been prevented through better applicant screening. One CD
expressed that “at least three of my admin[istrative] separation actions should have been picked
up at the applicant screening stage.”

Four of the six volunteer organizations we interviewed had developed ongoing processes to
revisit, revise, and improve their screening program. One organization stated that it reviewed all
volunteer misconduct cases semiannually in order to make improvements to the screening
process, which could prevent unsuitable applicants from becoming volunteers. At another
organization, a senior level official reviewed each case of misconduct after an investigation had
been completed.

The Peace Corps did not review specific instances or patterns of serious Volunteer misconduct in
order to understand the extent to which its screening process had failed to identify unsuitable
applicants. Without a formal review process, there is no assurance that the Volunteer screening
process is capable of identifying all potential eligibility and suitability issues. By reviewing past
cases of misconduct, the Peace Corps can use hindsight to learn from and improve controls in the



Final Audit Report: Peace Corps Applicant Screening Process                                          8
screening process. The Peace Corps must be diligent to ensure that the screening process is as
robust as possible.

               We recommend:

                    3. That the Office of Volunteer Recruitment and Services
                       develop and implement a process to review all
                       terminations, resignations in lieu of termination, and
                       administratively separated cases on a periodic basis.

                    4. That the Office of Volunteer Recruitment and Services
                       establish an annual meeting with all involved parties to
                       review and improve the Volunteer screening process.
                       This discussion should include a review of all cases of
                       misconduct and other volunteer organization best
                       practices.


COMPLETE AND CENTRALIZED INFORMATION ON FORMER VOLUNTEERS

Peace Corps staff responsible for making screening decisions did not have access to all
information on current applicants in a timely manner. Although applicant files contained all
information about the initial screening and related decisions, if the applicant was a former Peace
Corps Volunteer, there are no centralized records about former Volunteer misconduct. One
essential document for determining if an applicant who reapplies to the Peace Corps is suitable
and eligible is the administrative separation memo. There was inconsistent and missing
information about prior Volunteer service because the Peace Corps lacked a centralized or
formal process for storing unfavorable Volunteer separations, including administrative
separations or situations where the Volunteer resigned in lieu of separation, that describe
misconduct that may render the person ineligible for future service as a Volunteer.

When former Peace Corps Volunteers reapply for service it is critical that recruiters have an
understanding of that applicant’s previous experience as a Volunteer, including whether or not
the applicant’s performance was unsuccessful or problematic. Without complete and accurate
information on former Peace Corps service, it is possible that a Volunteer who was separated for
serious misconduct or resigned in lieu of administrative separation could be invited to serve
again as a Volunteer. This could cause great harm to the Peace Corps mission and the people and
country that the Peace Corps serves.

Guidance. MS 284, “Early Termination of Service,” requires a “consideration of administrative
separation memo” (separation memo) to document decisions to administratively separate a
Volunteer. MS 284 states:

       When considering administrative separation for a Volunteer, the CD shall inform the Volunteer orally or in
       a brief “consideration of administrative separation memo" of the grounds for the separation and the
       information in support of those grounds. See Attachment F for template for “consideration of




Final Audit Report: Peace Corps Applicant Screening Process                                                     9
       administrative separation memo.” The CD shall inform the Volunteer of the option to resign in lieu of
       administrative separation at any time before a final administrative separation decision is made.

       If the Volunteer resigns in lieu of administrative separation, the CD shall forward to the Office of
       Volunteer Recruitment and Selection (VRS) a memo (which can be the “consideration of administrative
       separation memo”) that states that the V/T resigned in lieu of being administratively separated, and sets out
       the grounds for the action and the information in support of those grounds….If the Volunteer does not
       resign within 24 hours, the CD shall sign and provide to the Volunteer a written notification that he or she
       has been separated from service pursuant to 22 U.S.C. 2504(i)

MS 284 also provides a template for the separation memo and details the type of information that
needs to be included. See Figure 2 for an example of this template.

                                    Figure 2. Excerpt from MS 284




Missing and Incomplete Information. While applicant files contained information about the
initial screening and decisions, recruiters need information about Volunteers current and past
Peace Corps service in order to make fully-informed decisions about their eligibility and
suitability for service. Specifically, required separation memos were missing and system coding
was inaccurate.

Of the 108 Volunteers who were unfavorably separated during FYs 2011 and 2012, VRS did not
have approximately 81 percent (88) of the separation memos, as required by MS 284.
Furthermore, the content quality of the 20 “consideration of administrative separation memos”
found in applicant files varied greatly from post to post. In many instances, the CDs did not
provide enough detail in the memos about the Volunteer misconduct for the reader to gain an
adequate understanding of the misconduct that took place. For example, the memo for one


Final Audit Report: Peace Corps Applicant Screening Process                                                      10
Volunteer cited that he was “unsuitable for Peace Corps service” for his project assignment but
did not include any other detail of the misconduct that caused the separation or why the CD
found him to be unsuitable for service.

The Volunteer End-of-Service Information system contains a series of different codes to mark
and identify why a Volunteer left Peace Corps service. These codes include the four types of
early resignation: (1) resignation, (2) medical separation, (3) administrative separation, and (4)
interrupted service. This system contains sub-codes that post staff enter to further explain if the
resignation was in lieu of separation. In reviewing records from this system, we identified 12
former Volunteers who were erroneously marked as unfavorably separated in the system. In one
instance, the region responded to our request for the supporting “consideration of administrative
separation memo” by providing a positive reference from the CD. The CD noted in the letter that
“the most noticed and valued attributions of [Volunteer Name Redacted] were her consistent
positive attitude and devotion to improving the lives of others.” This reference strongly supports
that this Volunteer should not have been coded as being unfavorably separated. However, when
we followed up with the region to confirm that this Volunteer was miscoded as unfavorably
separated, the region notified us that the post has since closed and staff is no longer with the
agency, so they were not able to provide any clarification on this coding.

Maintaining Record of Separation. Inconsistent and missing information on prior Volunteer
service resulted from the lack of a centralized or formal method for processing and storing
unfavorable Volunteer separations. CDs prepare separation memos, but there was no established
process for communicating those memos to headquarters offices on a consistent basis.
Furthermore, there was no supervisory review process to ensure memos met the format outlined
in MS 284.

Additionally, there was no centralized storage for separation memos. While CDs are supposed to
send the separation memos to VRS, this only happened in nine percent (20) of the cases. Instead,
this documentation was maintained at each specific post. However, Peace Corps staff were not
able to locate 31 percent (34/108) of separation memos for the Volunteers who were unfavorably
separated during FYs 2011 and 2012. This issue was further complicated by the Peace Corps’
lack of records retention policy for separation memos. In March 2012, the Peace Corps Office of
Records Management proposed a 30-year destruction cycle for files related to administratively
separated or resignation/early termination in lieu of administrative separation volunteers to the
National Records and Archives Administration. However, in January 2014, the Peace Corps
withdrew this request because moving forward all new separation documentation will be stored
electronically in DOVE. However, this left the agency without a records retention policy for the
already existing separation memos. In accordance with 16 CFR § 1228 (2000), “Disposition of
Federal Records,” the Peace Corps should be maintaining all of these records until a records
retention schedule is developed. Despite the regulation, we found that in some instances these
memos have been destroyed, as the separation memo have been improperly stored within the
VRS applicant file. These applicant files are destroyed on a four year cycle.

Without complete and accurate information on former Peace Corps service, VRS could accept a
former Volunteer who was terminated for misconduct and later reapplied for Volunteer service.
This could cause great harm to the Peace Corps mission and the people and countries that the



Final Audit Report: Peace Corps Applicant Screening Process                                       11
Peace Corps serves. In 2012, a former Volunteer, who was unfavorably separated, reapplied for
Peace Corps service within a few days of the separation occurring. Fortunately, this applicant file
contained the separation memo and the application was rejected. This case shows the importance
of accurate and centralized information.

Furthermore, our Evaluation on the Impact of the Five Year Rule on the Operations of Peace
Corps highlighted that one of the purposes of the five-year rule was to encourage Peace Corps
Volunteers to be hired by the agency as staff. Maintaining accurate records concerning a
Volunteers service is critical to making employee suitability determinations and decisions
granting access to classified information.

               We recommend:

                   5. That the Office of Global Operations implement a
                      comprehensive process to maintain support for all
                      administrative separation decisions, including those
                      that result in resignation in leiu of. This process will
                      include: standardizing the development of the memos,
                      routing the memos to all relevant offices for review and
                      approval, and retaining documentation in a centralized
                      location.

                   6. That the Office of Global Operations, in coordination
                      with the Office of Volunteer Recruitment and Services
                      and Office of Records Management, develop a records
                      retention policy for files related to administratively
                      separated or resignation/early termination in lieu of
                      administrative separation Volunteers that allows the
                      agency to use this documentation in the applicant
                      adjudication process.

                   7. That the Director require all records related to
                      administratley separated or resignation/early
                      termination in lieu of administrative separation be
                      maintained until a records retention schedule is
                      implemented.

                   8. That the Office of Volunteer Recruitment and Services
                      update the 108 administratively separated Volunteers
                      from fiscal years 2011 and 2012 to ensure their records
                      contain all of the necessary information, including
                      separation memos, to aid in future application reviews.




Final Audit Report: Peace Corps Applicant Screening Process                                     12
                          LIST OF RECOMMENDATIONS
We recommend:

1. That the Director develop and implement a specific child safety program to include ongoing
   training.

2. That the Office of Volunteer Recruitment and Services require work history verification as
   part of the screening process.

3. That the Office of Volunteer Recruitment and Services develop and implement a process to
   review all terminations, resignations in lieu of termination, and administratively separated
   cases on a periodic basis.

4. That the Office of Volunteer Recruitment and Services establish an annual meeting with all
   involved parties to review and improve the Volunteer screening process. This discussion
   should include a review of all cases of misconduct and other volunteer organization best
   practices.

5. That the Office of Global Operations implement a comprehensive process to maintain
   support for all administrative separation decisions, including those that result in resignation
   in leiu of. This process will include: standardizing the development of the memos, routing the
   memos to all relevant offices for review and approval, and retaining documentation in a
   centralized location.

6. That the Office of Global Operations, in coordination with Office of Volunteer Recruitment
   and Services and Office of Records Management, develop a records retention policy for files
   related to administratively separated or resignation/early termination in lieu of administrative
   separation Volunteers that allows the agency to use this documentation in the applicant
   adjudication process.

7. That the Director require all records related to administratley separated or resignation/early
   termination in lieu of administrative separation be maintained until a records retention
   schedule is implemented.

8. That the Office of Volunteer Recruitment and Services update the 108 administratively
   separated Volunteers from fiscal years 2011 and 2012 to ensure their records contain all of
   the necessary information, including separation memos, to aid in future application reviews.




Final Audit Report: Peace Corps Applicant Screening Process                                         13
     APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
In 1989, the Peace Corps OIG was established under the Inspector General Act of 1978 and is an
independent entity within the Peace Corps. The purpose of OIG is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. The Inspector General is under the general supervision of the Peace Corps Director
and reports both to the Director and Congress.

The audit objectives were to determine:

   1. Whether VRS has sufficient and reliable information available to make appropriate
      suitability and eligibility determinations for Volunteer applicants.
   2. Whether the Peace Corps applicant screening process is consistent with the screening
      practices of other major Volunteer organizations.
   3. The prevalence, characteristics, and outcomes of serious Volunteer misconduct.

Our audit conclusions are based on information from three sources: (1) document and data
analysis, (2) interviews, and (3) direct observation. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We relied on computer-processed data from DOVE and verified such data with hard-copy
documents as required. While we did not test the system’s controls, we believe the information
we obtained is sufficiently reliable for this report. Our audit criteria were derived from the
following sources: federal regulations, the Peace Corps Manual, industry best practices, and
other Peace Corps policies and initiatives.

The audit focused on reviewing the Volunteer screening process and applicant files for existing
and former Volunteers. We conducted this performance audit at Peace Corps headquarters from
December 2012 through June 2013. Internal controls related to the audit objectives were
reviewed and analyzed. Throughout the audit, auditors were aware of the possibility or existence
of fraud, waste, or misuse in the program.

Methodology. We gained an understanding of the screening process and control, reviewed
relevant criteria, and interviewed Peace Corps management and staff in VRS to gain an
understanding of their roles and responsibilities in the Volunteer screening process.

We surveyed 60 CDs about the characteristics, frequency, and outcomes of Volunteer
misconduct they face at their posts; 51 of the 60 answered the survey questions and provided us
other feedback. We developed our questions using our professional knowledge of the Volunteer
misconduct investigated by our office and through a review of the grounds for unfavorable
separation outlined in Peace Corps policy.


Final Audit Report: Peace Corps Applicant Screening Process                                      14
We reviewed the case files of all persons identified by the Office of Strategic Information,
Research and Planning using the Peace Corps Volunteer Database Management System as
having unfavorable separations during the two most recent years (FYs 2011 and 2012).
Misconduct information provided by the agency consisted of “consideration of administrative
separation memos,” and other information, such as email chains and performance improvement
plans. Some memos and information provided did not provide information about the
circumstances of the separation. We created misconduct categories for the purposes of this audit
because the agency does not have a process to systematically categorize and monitor misconduct.
We were unable to determine whether any of the Volunteers who did not have information
available were miscoded. Any names and identifying information of Volunteers or staff have
been redacted to protect privacy of respondents when used or referenced in this report.

We identified other major volunteer organizations by reviewing certain factors common with the
Peace Corps. Some major factors we considered were number of volunteers, whether the
majority of their workforce was volunteers, international assignments, volunteers who work
directly with beneficiaries, at least 50 percent of beneficiaries are youth, and screens more than
3,000 applicants per year. We interviewed six organizations in person or over the phone about
their screening processes. We did not identify the organizations by name in this report to allow
representatives from these organizations to candidly discuss their processes. We communicated
information from our interviews, including identifying contact information, to VRS at the end of
our audit.

Scope Limitation. During this audit, we did not review certain components of the screening and
placement process. Specifically, the audit objectives excluded medical screening process and
medical accommodations, assignment of Volunteers to specific countries and sectors, and a
review of interrupted service. These factors may have an effect on the misconduct and early
termination rates. In addition, our audit was hindered by the issues noted in our findings with the
consistency and availability of data on Volunteers that had misconduct issues.




Final Audit Report: Peace Corps Applicant Screening Process                                      15
                  APPENDIX B: INTERVIEWS CONDUCTED
As part of this audit, we conducted interviews with 12 representatives from Peace Corps
headquarters in Washington D.C. and six representatives from other volunteer organizations (not
listed here for anonymity). In addition, we surveyed all 60 CDs and received 51 responses.


                           Position                                 Office

           Deputy Director                           Office of Health Services
           Chief of Information and                  Office of Safety and Security
           Personnel Security
           Chief Administrative Officer              Africa Operations
           Expert                                    Europe, Mediterranean, and Asia
                                                     Operations
           Associate General Counsel                 Office of General Counsel
           Expert Senior Advisor to the              Office of General Counsel
           General Counsel
           Associate Director for                    Office of Global Operations
           Global Operations
           Senior Advisor                            Office of Global Operations
           Records Management Officer                Office of Management
           Placement Eligibility Specialist          Office of Volunteer Recruitment &
                                                     Selection
           Chief of Operations                       Office of Volunteer Recruitment and
                                                     Selection
           Placement Manager                         Office of Volunteer Recruitment &
                                                     Selection




Final Audit Report: Peace Corps Applicant Screening Process                                  16
                      APPENDIX C: LIST OF ACRONYMS

           CD            Country Director
           DOVE          Database of Volunteer Experience
           FY            Fiscal Year
           MS            Manual Section
           NAC           National Agency Check
           NACI          National Agency Check with Inquiry
           OIG           Office of Inspector General
           VRS           Office of Volunteer Recruitment and Selection




Final Audit Report: Peace Corps Applicant Screening Process              22
   APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY
                                           REPORT




Final Audit Report: Peace Corps Applicant Screening Process   23
                            APPENDIX E: OIG COMMENTS
Management concurred with all eight recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that when we close recommendations, we are not certifying
that the agency has taken these actions, or that we have reviewed their effect. Certifying
compliance and verifying effectiveness are management’s responsibilities. However, when we
feel it is warranted, we may conduct a follow-up review to confirm that action has been taken
and to evaluate the impact.

All eight recommendations remain open. OIG will review and consider closing recommendations
pending confirmation from the chief compliance officer that the documentation reflected in OIG
analysis is received. For recommendation 2, additional documentation is required.

2. That the Office of Volunteer Recruitment and Services require work history verification
as part of the screening process.

       Concur: Peace Corps management agrees that it is important to verify the work history of applicants for
       whom work history is a required qualification. In such cases, the Office of Volunteer Recruitment and
       Selection (VRS), and the Peace Corps Response program (OGO/PCR), routinely seek to verify the work
       qualification of individual applicants. This screening effort involves reviewing university and graduate
       school transcripts or diplomas, reviewing current required licenses or certificates, and obtaining reference
       letters from former supervisors.

       It should be noted that the overwhelming majority of Volunteer assignments do not require any specific
       work experience as a qualification for invitation. The agency’s over-arching strategy is to focus on recent
       university graduates and to train them up to a level of performance and capacity commensurate with their
       assignments in the host countries. These recent university graduates typically have very limited work
       experience, and that experience is usually unrelated to their intended Volunteer assignments. Management
       does not verify an applicant’s work history in such cases because that work history is not required for the
       Volunteer assignment and is usually not a meaningful factor is assessing an applicant’s qualifications.
       However, where prior work history is a selection factor, VRS and PCR will continue to verify the
       applicant’s work history.

Documents Submitted: N/A

Status and Timeline for Completion: Ongoing—in effect since 1984.

OIG Analysis: We recognize that the agency has been verifying an applicant’s work history
when prior work history is a selection factor. The intent of this recommendation was for the
agency to begin verifying work histories for all applicants. In doing so, VRS will have more
meaningful information to make suitability determinations and verify that the information on
applications is truthful. Such verification could also be designed to elicit basic information about
whether the applicant was ever disciplined or terminated by an employer, and whether the
employer would hire this individual again. While this information might also be useful to assess
Volunteer competencies, our recommendation was made to address suitability screening.
Furthermore, this verification goes beyond the reference letter VRS collects from applicants,


Final Audit Report: Peace Corps Applicant Screening Process                                                       28
because it would allow the agency to make direct contact with former employers and not the one
specifically chosen by the applicant. This process could allow VRS to potentially uncover
background information on applicants that was not disclosed in the application and is otherwise
not available from another source. In order to close this recommendation, please submit the
documented policy and procedure guidelines for collecting work history verification and a
sample of the verification form that is sent to the applicant’s former employer(s).




Final Audit Report: Peace Corps Applicant Screening Process                                  29
      APPENDIX F: AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                  This audit was conducted under the direction of former
                                  Assistant Inspector General for Audit Bradley Grubb by
                                  Auditor Gabrielle Perret, Lead Auditor Rebecca Underhill,
                                  Senior Evaluator Susan Gasper, and Program Analyst Kaitlyn
                                  Large.




                                  Hal Nanavati
                                  Acting Inspector General for Audit

OIG CONTACT                       If you wish to comment on the quality or usefulness of this
                                  report to help us strengthen our product, please contact Acting
                                  Assistant Inspector General for Audit Hal Nanavati at
                                  snanavati or 202.692.2929.




Final Audit Report: Peace Corps Applicant Screening Process                                    30
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                         Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                 OIG@peacecorps.gov
          Online Reporting Tool: peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
